<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES   APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





      MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                            _______________

  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS

                 CHARLES W. DENT, Pennsylvania, Chairman

  JEFF FORTENBERRY, Nebraska         SANFORD D. BISHOP, Jr., Georgia
  THOMAS J. ROONEY, Florida          SAM FARR, California
  MARTHA ROBY, Alabama               DAVID E. PRICE, North Carolina
  DAVID G. VALADAO, California       BARBARA LEE, California
  DAVID P. JOYCE, Ohio
  DAVID W. JOLLY, Florida

  
  
  
  

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking 
  Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees.

    Maureen Holohan, Sue Quantius, Sarah Young, and Tracey E. Russell,
                            Subcommittee Staff

                                __________

                                  PART 3

                                                                   Page
  Hearing--Related Agencies......................................     1
                                                                
                                                                      
                                        
  American Battle Monuments Commission...........................   117
                                                                 
                                                                   
                                        
  Arlington National Cemetery....................................   139
                                                                 
                                                                    
                                        
  U.S. Court of Appeals for Veterans Claims.......................  161
                                                               
                                                                    
                                        
  Armed Forces Retirement Home....................................  189
                                                                
                                                                    
                                        
  Outside Witness Testimony--American Psychological Association.... 235
                                                                
                                                                    
                                        

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                   

                                _______

          Printed for the use of the Committee on Appropriations
          
          
          
          
          
          
          


 PART 3--MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
 
 
                        APPROPRIATIONS FOR 2016
                        
                        





      MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                                __________

  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS
                        

                 CHARLES W. DENT, Pennsylvania, Chairman

  JEFF FORTENBERRY, Nebraska               SANFORD D. BISHOP, Jr., Georgia
  THOMAS J. ROONEY, Florida                SAM FARR, California
  MARTHA ROBY, Alabama                     DAVID E. PRICE, North Carolina
  DAVID G. VALADAO, California             BARBARA LEE, California
  DAVID P. JOYCE, Ohio
  DAVID W. JOLLY, Florida

  
  
  
  

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking
  Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees.

    Maureen Holohan, Sue Quantius, Sarah Young, and Tracey E. Russell,
                            Subcommittee Staff

                             ______________

                                  PART 3

                                                                   Page
  Hearing--Related Agencies......................................     1
                                                                 
                                                                      
                                        
  American Battle Monuments Commission..........................    117
                                                                 
                                                                    
                                        
  Arlington National Cemetery....................................   139
                                                               
                                                                    
                                        
  U.S. Court of Appeals for Veterans Claims......................   161
                                                                
                                                                    
                                        
  Armed Forces Retirement Home...................................   189
                                                                 
                                                                    
                                        
  Outside Witness Testimony--American Psychological Association...  235
                                                                 
                                                                    
                                        

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                   

                                  _____
                                  

                    U.S. GOVERNMENT PUBLISHING OFFICE

  97-301                    WASHINGTON : 2015

                            


 
                      COMMITTEE ON APPROPRIATIONS
                      
                            ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey              NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                      MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                               PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                        JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                      ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                          DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                            LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                          SAM FARR, California
  TOM COLE, Oklahoma                               CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                       SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                    BARBARA LEE, California
  TOM GRAVES, Georgia                              MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                              BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                           STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                       TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                        C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                             CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                     MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                            DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

    

                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   
                                   
                                   

 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2016

                              ----------                             

                                         Wednesday, March 18, 2015.

                            RELATED AGENCIES

                               WITNESSES

HON. MAX CLELAND, SECRETARY, AMERICAN BATTLE MONUMENTS COMMISSION
PATRICK K. HALLINAN, EXECUTIVE DIRECTOR, ARMY NATIONAL MILITARY 
    CEMETERIES
JUDGE BRUCE E. KASOLD, CHIEF JUDGE, UNITED STATES COURT OF APPEALS FOR 
    VETERANS CLAIMS
STEVEN G. MCMANUS, CHIEF OPERATING OFFICER, ARMED FORCES RETIREMENT 
    HOME
    Mr. Dent. Thank you all for being here. The committee will 
come to order. I want to welcome all of you here today. We 
really appreciate you being here on the four related agencies 
that are funded through the MILCON/VA bill, the American Battle 
Monuments Commission, Arlington Cemetery, the United States 
Court of Appeals for Veterans Claims, and of course the Armed 
Forces Retirement Home. We thank you all for being here this 
morning.
    Before I proceed, I would like to yield to my very 
distinguished ranking member, Mr. Bishop, for any opening 
remarks he might like to make.

                    Ranking Member Opening Statement

    Mr. Bishop. Thank you, Mr. Chairman.
    I am just delighted to be here because today we have the 
pleasure of having before us a true American hero and a friend 
of longstanding, Secretary Max Cleland. Secretary Cleland was 
Secretary of State, he was a State Senator, and he was our U.S. 
Senator. And he has just been a friend for many, many years, 
and I am delighted, with his life of public service, to have 
him here, as well as the other members of the distinguished 
panel.
    Judge Kasold, Mr. McManus, it is good to have you back.
    And, of course, Mr. Hallinan, welcome. It is your first 
time, I believe.
    The last time our subcommittee had a related agencies 
hearing we were dealing with sequestration, and unfortunately I 
think we still may be dealing with the threat of sequestration 
again. We have already heard from the Department of Defense 
regarding how the budget caps of sequestration will affect our 
national defense, but I am sure it is the same for the related 
agencies as well. My side of the aisle has grave concerns about 
the nondefense discretionary priorities, and of course the 
other side has concerns about the defense discretionary 
priorities if the caps were to stay in place.
    Mr. Chairman, it is obvious both sides believe it is time 
we get rid of these budget caps and the threat of sequestration 
and tackle the real problem, which we all know isn't 
discretionary spending. I look forward to the witnesses' 
thoughts on this, as well as the 2016 budget request.
    And I just have to take a point of personal privilege, Mr. 
Chairman. During the break I had the opportunity to do some 
travelling with the Appropriations Committee chairman, and 
among the places we went were a couple of very, very impressive 
American battle monuments locations in North Africa and the 
Rhone National Cemetery, and it was just phenomenal. It was 
inspiring.
    And I just want to salute you, Mr. Secretary, and let you 
know that your folks are doing a good job. And at Rhone all of 
us were in tears. The presentation that the young lady made, 
she just brought it to life, and it was just quite an 
experience.
    With that, I yield back, Mr. Chairman.

                       Chairman Opening Statement

    Mr. Dent. Thank you, Mr. Bishop. And, yes, I heard that was 
quite a meaningful experience that you all had, and I know a 
few members of the subcommittee went, along with the chairman, 
Mr. Rogers, and I look forward to taking a similar trip at some 
point in the future. And glad to hear about that experience.
    I would like to introduce the four witnesses we have before 
us today. I would also like to note the extraordinary public 
service represented here among the four. Each of our witnesses 
has served in the armed services, either in the Army or the 
Marine Corps. All have chosen to continue to serve as civilians 
and have done so in a remarkable fashion. In total, I think we 
have before us, we have calculated, close to 160 years of 
exemplary service to our country, and I must tell you that none 
of you look 160 years old or even close. On behalf of this 
subcommittee, let me say that your dedication is truly 
appreciated.
    I will introduce one of you first, the Honorable Max 
Cleland. And as was mentioned by Mr. Bishop, a great American 
hero and has had a great, distinguished career, including the 
United States Senate. And he was appointed Secretary of the 
American Battle Monuments Commission in June of 2009.
    We have Mr. Patrick Hallinan, who has been the Executive 
Director of the Army National Cemeteries Program since June of 
2013. Prior to that he was Superintendent at Arlington.
    Third, we have Judge Bruce Kasold, who has been the Chief 
Judge, United States Court of Veterans Claims since August of 
2010, and has served as a judge on the Court of Appeals since 
2003.
    Mr. Steve McManus, we have before us as well. He assumed 
the role of Chief Operating Officer for the Armed Forces 
Retirement Home on September 25 of 2011, and he has been with 
that agency for 12 years.
    So with that, I would like to thank all of you for being 
here today, and without objection, your written statements will 
be entered into the official record. I would ask each of you at 
this time to briefly summarize your statements. And then at 
every hearing we also will observe the 5-minute rule for member 
questions so we can maximize discussion. So, again, if each of 
our good friends here today could just summarize their 
statements, and then we will go right to questions.
    Secretary Cleland.
    Mr. Cleland. Thank you very much, Mr. Chairman. May I say 
that sometimes I feel like the combined 160 years of public 
service on my body and on my shoulders. I am honored to be with 
all these gentlemen here, and we thank you for all your kind 
words. We thank the ranking member, Congressman Bishop, my dear 
friend from my home State.
    And I am so glad you got out of Tunisia just in time.
    And for all of the members, we are honored to be with you 
today.
    Let me just say a few words about Tunisia. The attack there 
put us on maximum alert. We shut down the cemetery within 15 
minutes. We lowered the flag in order to lower the visibility. 
Part of our strategy, Mr. Chairman, around the world is to hide 
in plain sight. You can't hide a cemetery. You can't hide what 
the story of Americans is in terms of the 14 nations that we 
are in. So you can't hide. But we try to hide in plain sight. 
We try not to make ourselves visible, too visible and too 
vulnerable. Actually months ago we doubled the security at 
Tunisia, and it is now 24/7. It is still risky there because 
the State Department will not allow us to send an American as a 
superintendent. It is the only place where we don't have an 
American running our cemetery.
    So Tunisia we think is under control as far as our cemetery 
is concerned. About 3 years ago I had a revisitation of my time 
in Vietnam where I was a young lieutenant, and it was hard to 
believe I had tanks outside the gate, machine gun fire, and so 
forth, and I almost thought I was back in a combat zone here 
listening to my superintendent at the time talk 3 years ago.
    Now we feel like we are much further along. We are ahead of 
the game. The most recent attack was in downtown Tunis. So we 
feel like we are okay there, but it is a very risky world out 
there, as you know, sir, and we have taken precautions. We are 
now putting our security number one, and we have a former Navy 
SEAL officer as our director of security worldwide operating 
out of Paris.
    So with those few words, I will turn it over to my 
colleagues here. But thank you.
    And I am glad you are back from Tunisia, sir.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Hallinan. Good afternoon, Mr. Chairman, Ranking Member 
Bishop, committee members. I am honored to be here. I am 
honored to present and testify with the gentlemen to my left 
and right. Former Senator Cleland was my old boss many years 
ago, and it seems like we just keep running into one another in 
our federal service. I am glad to be here. I do have a short 
oral statement that I will move to quickly if that is okay with 
the chairman and the committee.
    Mr. Chairman Dent, Ranking Member Bishop, distinguished 
members of the subcommittee, thank you for the opportunity to 
present the President's budget for the Department of the Army, 
Cemetery Expense Program, fiscal year 2016. As the Executive 
Director, I am responsible for both Arlington National Cemetery 
and the U.S. Soldiers' and Airmen's Home National Cemetery. I 
assure you that the Army is committed to rendering public honor 
and recognition and dignified burial services for members of 
the armed service and their loved ones. On behalf of the 
cemeteries and the Secretary of the Army, I thank Congress for 
the support you have provided over these years.
    Since the testimony to this committee 2 years ago, we 
continue to build upon our tremendous progress. We are setting 
industry standards for the best practices, and we have become a 
center of excellence, while working closely with our partner 
organizations, and I am honored to testify with each of them 
today.
    The President's fiscal year budget 2016 recently increased 
Arlington's Budget Control Act funding level from $45.8 million 
to $70.8 million. This level of funding is adequate to maintain 
and sustain Arlington's operating budget into the foreseeable 
future, not including anticipated capital costs. The additional 
$25 million for funding for infrastructure revitalization and 
sustainment is also sufficient to continue restoring 
facilities' infrastructure to a level befitting the Nation's 
premiere national shrine.
    Our priority is to extend burials for Arlington as long as 
we possibly can. Since fiscal year 2011, we have been working 
to increase the burial capacity at the cemetery with three 
expansion projects.
    Our first project, the construction of Columbarium Court 
#9, is complete and was dedicated in May of 2013, and it 
increased above-ground inurnments through the year 2024.
    The second project, the Millennium Project, as you see with 
the map we provided with my written statement, is at the 
northern tip of the cemetery. This project is well underway and 
is on track to be completed in fiscal year 2016. It will 
increase our first interment capacity through the year 2036.
    The final project I want to call attention to is the 
Southern Expansion, formerly referred to as the Navy Annex, 
which is located at the southern edge of the cemetery. The 
planning and design for this project has begun, and this 
project will extend the first interments in the cemetery 
through the 2050s. However, without enacted funding Arlington 
cannot move forward with the final phase of this expansion. 
Projected construction is estimated to begin in the 2018 
timeframe at an estimated cost of around $300 million.
    Funding for this project has not yet been identified, and 
Arlington National Cemetery faces a challenge in resourcing 
this requirement as current congressional language prevents the 
Department of Defense from using its funding for this 
requirement and Arlington National Cemetery's Budget Control 
Act level of funding is well short of the amount required.
    In conclusion, Mr. Chairman, I thank you for your support 
for Arlington National Cemetery, for the capital investments 
that we truly need to sustain, maintain, and expand the 
national shrine. Thank you, and I look forward to answering any 
questions you and the committee have.
    Mr. Dent. Thank you.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Dent. Judge Kasold.
    Judge Kasold. Thank you, Mr. Chairman, Mr. Bishop, members 
of the committee. It is a pleasure to testify before you today 
on our budget and with this distinguished panel.
    I would like to note that I have with me Judge Hagel, who 
will be the Chief Judge come this August when I finish my term 
as Chief Judge. We also have Judge Bartley and Judge Pietsch, 
who have come here today, as well as the clerk of our court, 
Greg Block, and the person who prepares our budget, very 
important, Eva Armah.
    I will summarize. We are asking for a little over $32 
million, which is about a $700,000 increase over the prior 
year. This committee and our authorizing committees have been 
very supportive of the Court. This is very adequate funding for 
the numbers that we have had and the numbers that we project 
over the next year for the fiscal year 2016.
    The one point I would like to make is that we are 
permanently authorized seven judges. We are temporarily 
authorized nine judges. We revert to eight judges this August 
when one of those judges retires. This budget includes funding 
for nine judges. I coordinated that with the staff of the 
Appropriation Committees. I have talked to the authorizing 
committees. There is already legislation on the House side to 
reauthorize nine judges temporarily through 2020, I believe. I 
want to make that point clear. The expense is about a million 
dollars for each judge, including the five staff that support 
the judge.
    And the rest of the budget is pretty straightforward, I 
believe. I will answer any questions that you have when we get 
there. Thank you, Mr. Chairman.
    Mr. Dent. Thank you.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Dent. Mr. McManus.
    Mr. McManus. Mr. Chairman, I would also like to recognize 
two individuals that came with me, our Resident Advisory 
Committee Chair, Phil Ford, and my CFO, Vicki Marrs.
    Mr. Chairman and members of the subcommittee, as the Armed 
Forces Retirement Home Chief Operating Officer, I appreciate 
the opportunity to appear before you today and present the 
Armed Forces Retirement Home fiscal year 2016 budget request. 
The homes are financed by appropriations drawn from the Trust 
Fund. Today AFRH residents are veterans who have served in 
every military campaign since World War II.
    For almost a decade, AFRH management has worked to 
strengthen the Trust Fund through cost-reduction efforts. In 
recent years we have reduced operating costs and undertaken 
several major construction projects. Our duty is to preserve 
the assets in the Trust Fund while taking withdrawals at great 
discretion. The Trust Fund is funded by fines and forfeitures, 
resident fees, 50-cents monthly payroll withhold from Active 
Duty, interest from securities, estates, and gifts, and sales 
or lease.
    AFRH operations continue to require strong fiscal 
management. Over the last several years, we have experienced 
unanticipated reduction in our largest revenue stream, fines 
and forfeitures. In 2009 we were funded at or received revenue 
in total of $41 million. At the end of 2014 we had $28 million, 
a significant reduction in a very short period of time. AFRH 
carefully tracks and projects revenue using historical trends 
and has never experienced this reduction of this magnitude, 
even if you go back to as far back as the Korean War when they 
had reductions after the Korean War, they never received this 
significant reduction.
    Because of the unanticipated loss in revenue, operating 
costs have exceeded revenue itself, significantly reducing the 
Trust Fund balance. With the assistance of DOD leadership, AFRH 
is planning to implement initiatives in 2016 that will assist 
in rectifying the situation to ensure long-term Trust Fund 
solvency. We are planning to implement a reasonable and 
equitable resident fee. We are also planning to increase the 
50-cents Active Duty monthly withholding to a dollar. We are 
initiating an audit of fines and forfeitures for the last 3 
years to ensure that the amounts being collected are actually 
coming to AFRH. And we are implementing our Washington, D.C., 
master plan to lease 80 acres of underutilized property on our 
southeast corner for development.
    Our budget request of $64.3 million for 2016 includes $63.3 
million O&M and $1 million in capital. The O&M request requests 
reflects $900,000 increase above the 2015 level, and the 
capital request is constant at $1 million.
    The fiscal year 2016 O&M budget request also allows the 
AFRH to continue meeting the Centers for Medicare and Medicaid 
Services' recommended increased staffing ratio for our upper 
levels-of-care residents. The staff ratio increased nursing 
staff/resident ratio from 3.5 to 4.1. To officially meet this 
requirement, additional nursing staff personnel hires have been 
programmed.
    Despite increasing our upper-levels-of-care nursing staff, 
the AFRH has also implemented key initiatives to contain 
healthcare costs by keeping our residents in their independent 
living rooms environment longer. Our highly successful pilot 
program, Independent Living Plus, will be established as a 
permanent level of care in 2015. In 2016 we will go for 
accreditation with the Joint Commission.
    Our ILP program provides basic living assistance for 
residents who need additional care and allows them to remain 
independent longer. This program is a cornerstone strategy in 
AFRH's Aging in Place initiative. During fiscal year 2014 this 
pilot program allowed over 100 residents to remain independent 
in their current room.
    As previously discussed, the solvency of the Trust Fund is 
our most crucial challenge. Our best option for increasing the 
Trust Fund is our aggressive pursuit of leasing underutilized 
Washington property. This effort should take place by the end 
of 2017.
    In summary, we believe that fiscal year 2016 will continue 
to show benefits and cost containment for our new energy-
efficient buildings, reduce Washington campus footprint, and 
cost-saving initiatives. As we close fiscal year 2014 and begin 
2015 on a positive note, including initiatives to bolster our 
revenue, we are continuing our focus on vibrant and economical 
operations for our heroes that we serve, welcome new residents 
to enjoy the benefits of the homes, and focus on greater 
independence for our residents.
    I respectfully request the subcommittee's favorable 
consideration of our 2016 budget and thank you for the 
opportunity to address the subcommittee. Mr. Chairman, this 
concludes my testimony.
    Mr. Dent. Thank you, Mr. McManus.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                         INTERPRETIVE PROGRAMS

    Mr. Dent. I know you are preparing for some pretty big 
visitors tomorrow. Is that right?
    Mr. McManus. We are, sir. We are looking forward to it, 
having the Prince come out, plus the Duchess of Cornwall. 
Should be a good visit.
    Mr. Dent. I am sure. I look forward to learning about it.
    Secretary Cleland, as we discussed last week, and as you 
highlight in your testimony here today, the importance of 
interpretive work, or telling the story, I think, as you like 
to say, of those who sacrificed in the wars that are 70 to 100 
years in the past. This subcommittee has strongly supported the 
Battle Monuments Commission's efforts for all visitors to 
understand the significance of the people, the place of the 
cemetery or the monument, and that is what touches us. Your 
fiscal year 2016 budget request for interpretive programs is $7 
million, more than double last year's funding level of $3.1 
million, I believe.
    Please tell us about the educational programs that you have 
initiated and what the budget increase will buy, and describe 
what we will see and experience and when we will visit one of 
the new centers.
    Mr. Cleland. Yes, sir. Thank you very much for highlighting 
the interpretive program. The Park Service calls it 
interpretation. We call it telling the story. I have felt, and 
maybe it is because I am a history guy, but I have felt that 
the American Battle Monuments Commission is really America's 
premier storyteller of our story abroad, and we fail if we 
don't tell that story every way we can and every time we can.
    For the details that you point out and request, I have 
three people here that can relate to that. First of all, the 
Deputy Secretary, Rob Dalessandro; secondly, Matthew Beck; and 
third, Mike Conley might want to chip in.
    Rob, why don't you take it.
    Mr. Dalessandro. Thank you, sir.
    Mr. Chairman, Rob Dalessandro, and I am the Deputy 
Secretary of the American Battle Monuments Commission, and it 
is a pleasure to have the opportunity to talk to you, ladies 
and gentlemen, about something that is so near and dear to our 
hearts, and that is this interpretive mission.
    Some people think that ABMC exists to maintain the 
cemeteries and memorials overseas. But far larger is our 
mission to be a voice to those generations that can't speak. I 
am talking about the World War I generation, we have already 
lost that generation, and the World War II veterans that are 
leaving us in great numbers.
    To your question. Most of the money that is tied up in 
interpretation is devoted to new visitor centers that will 
open. We opened the Normandy visitor center. It has been a 
tremendous success. Didn't increase visitation, but it greatly 
enhanced visitor experience and provided context.
    What we have found in the last few years is that Americans 
lack context. If you go to a place like Henri-Chapelle or to 
Tunis, we get asked, why are these people resting here? We want 
to provide that background.
    We have three upcoming projects that are critical. All of 
them are near and dear to our hearts. Those projects will 
highlight the centennial of World War I, two of them. There 
will be a project that will cover the troops in the north. We 
detached a corps, part of a corps, and two divisions to the 
British in World War I. That is the 30th Division from North 
Carolina, 27th from New York. Those divisions served on the 
British front and at Somme and Flanders Field. We will open a 
visitor center at Flanders Field.
    The big American offensive of World War I is the Meuse-
Argonne. That is our largest World War I cemetery in Europe. 
And we will open an interpretive center at Meuse-Argonne to 
tell the story of those Americans that fell up there.
    So those are our two World War I projects. Additionally, 
there will be a contact station at the Chateau Thierry 
Monument, about 40 minutes outside of Paris. It will have a 
couple of different important missions. One of them will be to 
tell the story of the initial American operations overseas in 
World War I, and then it will introduce Americans to the ABMC, 
so if they are travelling across Europe they will know where 
they can stop to see both our World War I--

              TELLING THE STORY TO THE YOUNGER GENERATIONS

    Mr. Dent. May I ask you briefly too, since you are telling 
the story, are you trying to tell the story to younger 
generations? How are you using technology? This is a tech-savvy 
population. What are you doing?
    Mr. Dalessandro. You are talking to an 18th century person 
here. But thankfully I have got great staff people.
    We are leveraging social media and the Internet in 
incredible ways. In fact, I have to brag a little bit. Our Web 
site was one of the top 10 government Web sites selected just 
recently. And we are working in partnership with Virginia Tech 
and a number of other institutions to get at the youth through 
a number of apps. We have now three iPhone apps already 
unveiled. They are available on a number of other platforms, 
one for Pointe du Hoc, one for Normandy, one coming up on World 
War II, one coming up on Meuse-Argonne.
    So we are trying to stay fully engaged, Twitter, Facebook, 
et cetera, and we are getting great feedback on that. So this 
is something that thankfully we have got tech-savvy folks that 
are working.
    Mr. Dent. Thank you. My time has expired already.
    Mr. Dalessandro. I am sorry I gave a lecture.
    Mr. Dent. That is all right. We wanted to hear about this, 
so it is important that you tell the story.
    So I am going to turn right now to our distinguished 
ranking member, Mr. Bishop, for his questions.
    Mr. Bishop. Thank you very much.
    There is not enough that can be said about the active 
interpretive centers. The one at Normandy is phenomenal, and 
Mr. Young and Mr. Murtha did a great deal of investment in 
that. I had the opportunity to go and visit it, and it is 
tremendous, and the Rhone American Cemetery, with the in-person 
interpretations, which is overwhelming. So it is well worth it, 
and it certainly puts it in the historical context and makes 
the visitor appreciate the contribution, as well as the 
residents, the people, the inhabitants in the area appreciate 
the contributions that Americans have made.

                      COMMISSION'S CAPITAL PROGRAM

    Mr. Secretary, in 2012, to save money, the Commission chose 
to delay engineering work and capital expenditures, and then 
sequestration hit. Can you provide the subcommittee with some 
insight on the Commission's current capital program, what types 
of infrastructure and maintenance projects that we should 
expect to see in the future?
    Mr. Cleland. Thank you very much, sir.
    May I ask Matthew Beck if he wants to try to deal with that 
one.
    Mr. Beck. Good afternoon. Matthew Beck. I am the Budget 
Officer for the American Battle Monuments Commission.
    With the current budget request before you for 2016 and 
including 2015, we believe we are fully funded on our 
maintenance and infrastructure programs. We don't believe we 
have a deferred maintenance problem or any funding issues which 
are related to that. I mean, if we receive our full fiscal year 
2016 request, we believe we will be adequately funded to 
address any and all maintenance issues at our cemeteries.

                  MAINTAINING CLARK VETERANS CEMETERY

    Mr. Bishop. Thank you.
    Public Law 112-260 authorized the Battle Monuments 
Commission to operate and to maintain Clark Veterans Cemetery. 
Since the Commission has taken over at Clark, what improvements 
have been completed, and what do you expect to take place in 
the future? And do you have an estimate of the costs for 
maintaining the Clark Cemetery, and is there any concern that 
the cemetery will sort of suck up all of the resources for the 
Commission?
    Mr. Cleland. Thank you very much for the question.
    This was a baby that was dropped on our doorstep. So we are 
looking around to get enough milk to keep it alive, not just 
keep it alive, but to dramatically improve it, and we have done 
that. What we want to do is look at the full requirement for 
maintaining Clark in a dignified manner.
    I would like to ask Rob Dalessandro to elucidate on that a 
little bit.
    Mr. Dalessandro. Thanks, boss.
    Sir, Clark Cemetery is a little bit of a challenge. It has 
got a little something for everyone. What we are up to right 
now is finishing a survey, both of its grounds and its history. 
And just for everyone's knowledge, Clark was a consolidated 
cemetery that was moved as a result of a battle that occurred 
where Clark's interred originally were, and then the collapsing 
of several other installations in the Philippines.
    So right now what we need to do is do a historical survey, 
which we are about 50 percent through, that will tell us what 
we have at Clark Cemetery. That will shape the way ahead. As 
part of that survey, we are leveraging our compatriots at 
Arlington National Cemetery--in fact, they will be out there 
this spring--to give us some ideas of what the best way ahead 
is. We want to spend in a way that is well thought through. We 
are not there right now, but I am confident that we will be 
there by the end of the fiscal year.
    So I think we are on track on Clark Cemetery. We will spend 
some infrastructure funds to get some things spun up that we 
need at Clark, but we are funded to do that currently, so we 
are okay.
    Mr. Cleland. I would say, sir, that we are okay for the 
present time, but no one is saying that we are okay for the 
long run because we have to define what the long run really is. 
It is going to cost us many millions of dollars, and we don't 
want to pull that from our other cemeteries, like Normandy and 
Rhone and Tunisia and so forth. So we will be coming to you and 
be totally transparent about our proposals. Thank you.
    Mr. Bishop. Thank you.
    My time is about up, so I will yield back.
    Mr. Dent. Thank you.

                          FLORAL FUND PROGRAM

    And we are going to recognize members in the order in which 
they arrived, starting with Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I had a question for you, but it is 
probably best answered by Mr. Dalessandro, about the Floral 
Fund Program. I understand it is due to be terminated in about 
10 days. This is a program, where individuals can deposit money 
in an account that allows for flowers to be placed at a loved 
one's plot overseas.
    Can you explain the decision that went into this, maybe how 
widely it is used, what is the actual cost to the agency or the 
Commission?
    Mr. Cleland. Thank you very much, sir. May I say that, and 
Rob can clarify this some more, the whole concept of the 
ability of a next of kin to be able to put flowers on the grave 
of a loved one in one of our national cemeteries abroad came 
about as a measure of post-World War II feelings of loss and 
grief, that therefore the American Battle Monuments Commission 
that ran the cemeteries should somehow be an intermediary on 
this. We can't find any real legislation or authority to do 
this. Maybe somebody just said this might be a good idea, and 
all of a sudden the Flower Fund got created.
    Now, what happened was that people were sending us checks. 
We were in the check business. And I guarantee you we dodged a 
bullet by not screwing that up over the past few decades.
    The point is now we have technology that was not available 
in the 1950s for anyone that wants to put flowers on a grave. 
There is e-commerce. You can go on all kinds of Web sites and 
get flowers delivered to Tunisia or Manila or whatever to put 
on any grave. So the ability to place flowers on a grave still 
exists. It is now done through e-commerce. We are just getting 
out of the check-writing business. We don't take checks 
anymore. And Rob can talk about this a little bit.
    Mr. Jolly. And I guess, Rob, before your comments, 
obviously we live in an e-commerce world. But the notion that 
it would be easy for me today to put flowers on one of the 
plots that Mr. Bishop and I had the opportunity to visit last 
week, I had an opportunity to stand in front of somebody from 
Florida, I don't know how I would find a florist on the 
Internet and be able to describe where to go and so forth.

                    TECHNOLOGY WITHIN ABMC PLATFORM

    Mr. Cleland. Mr. Congressman, just go to our Web site, 
ABMC.gov.
    Mr. Jolly. So that is my question. Is there technology 
within the VA platform?
    Mr. Cleland. Not the VA, the American Battle Monuments 
Commission.
    Mr. Jolly. That is right. Of course.
    Mr. Cleland. Yes, sir. The answer is yes.
    Mr. Jolly. So what is the current system once the Flower 
Fund goes away in 10 days?
    Mr. Dalessandro. I am glad you asked this question, sir. 
Let me first start by saying that it isn't in 10 days. We will 
continue to run the current program through Memorial Day. So 
all orders through this Memorial Day we are going to run under 
the old program.
    We are confident, we actually checked it in Tunisia, we 
have a list of vendors that you can go to directly, we are 
confident you can from here or from Omaha order flowers and 
have them put on a grave site at ABMC. We are working through 
right now one thing that has become a sticking point, which is 
we were providing direct next of kin photographs of the flowers 
in place. Now we are working to figure out how we are going to 
do that, but we will still provide that service at this point.
    But if I left you with nothing else, I would tell you that 
the ability to leave flowers on a grave is not going away.
    Mr. Jolly. Sure.
    Mr. Dalessandro. We are just getting out of the middle of 
this. And we think this is going to be wholly more efficient. 
The cost to the government----
    Mr. Jolly. What is the cost?
    Mr. Dalessandro. We are putting hundreds of man-hours. I 
have a fact sheet.
    Mr. Jolly. But do you know the cost, not the man-hours? And 
how widely is it used?
    Mr. Dalessandro. I would say 2,000 floral orders a year are 
used----

                    SAVINGS FOR FLORAL FUND PROGRAM

    Mr. Jolly. The termination seems to be a disruption 
personally to a number of people who have relied on this 
program. I mean, it doesn't sound like this is a big pay-for in 
the overall budget.
    Mr. Dalessandro. Actually it is a big savings. The problem 
that we have is that--the cemetery at Normandy is a great 
example--the cemetery staff at Normandy during the Normandy 
anniversary are devoted almost three-quarters of their time to 
placing flowers. Back to our intrepretive program, we want to 
retrain those people and get them to provide an intrepretive 
experience there. When we built the visitor center there one of 
our goals was not to lessen the crosses row on row, but we feel 
like the flowers are taking it over at this point.
    Mr. Jolly. Okay. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dent. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. I thought I was so late 
that I would be here long after you guys went home.
    Mr. Dent. Perfect timing.
    Mr. Farr. Thank you very much.
    Secretary Cleland, Senator, I just want to tell you how 
much I owe you a debt of gratitude. I met you 41 years ago in 
the backyard of a chicken farm in Prunedale, California, which 
we call Prunetucky, and you were there with a former governor 
of Georgia that nobody had ever heard of called Jimmy Carter. 
And I was so inspired by the two of you that six months later I 
ran for public office. That visit changed my life, so I 
appreciate all the work you have done in your public service 
and service to our country.
    First of all, I wanted to say that Congress authorized a 
Veterans Oral History Project, it has been going on for about a 
decade now, and all those oral histories have been collected 
voluntarily. It is interesting that the older vets are now 
beginning to want to tell the stories particularly to their 
grandchildren, the stories they haven't told to their spouse or 
their own children. We have used it very extensively in our 
district. Those are all stored in the Library of Congress.
    Perhaps you could start using some of those stories to 
start interpreting abroad. I am glad you are doing that. I went 
to the Philippines, and it was fascinating. There is so much 
there to learn. We just kept asking questions. And if we hadn't 
been a VIP delegation, I don't think those questions would have 
been answered. So the visitors really need this. All those 
tiles that were done of all the battle scenes in the Pacific, I 
heard they were done by an artist in my hometown. So that was 
kind of interesting and it would have really been fascinating 
to be able to bring some press along.
    I appreciate your effort to extend the life of Arlington 
Cemetery. That cemetery is going to be extended well into the 
2050s, but then you are going to have to find a new spot. I 
have been arguing that the majority of the burials in that 
cemetery come from east of the Mississippi, and yet the 
majority of veterans are on the west of the Mississippi, I 
think the next cemetery ought to be on the west coast, 
particularly at former Fort Ord, where, by the way, we just 
inaugurated last Friday and broke ground on a veteran's 
cemetery. So perhaps we can extend that to be an ``Arlington 
West.''

           ESTABLISHING A NEW DEPARTMENT OF THE ARMY CEMETERY

    I just wondered, have there been any discussions regarding 
the establishment of a new Department of the Army cemetery of 
the same stature as Arlington anywhere else in the country, and 
if so, does the west coast play in that? I would also like to 
know, since we asked several years ago, the data on the home 
locations of the burials at Arlington. Are they still 
collecting that data by geographical location?
    Mr. Cleland. Mr. Farr, thank you very much for those kind 
words. I remember that time, and I hope your public service has 
been rewarding over the last 40 years. Thank you.
    Let me just say the Veterans History Project out of the 
Library of Congress was started by some U.S. Senator from 
Georgia named Cleland and some unknown guy, now a private 
citizen, named Chuck Hagel. So we teamed up in the Senate and 
we put together the Veterans History Project, and believe it or 
not it has collected well over a million stories now, part of 
which we access. We have stories of 125,000 dead that we want 
to tell, and we tell one every day on our Web site, as a matter 
of fact. But what you point out is that there is a great 
repository of material that we want to get out.
    Secondly, in terms of Manila, that is where we do want to 
put together an interpretive center so that it is not just the 
crosses row on row and the ceramic tile that tells the story of 
the battle of the Pacific, but there is interpretation there, 
as Rob said, who is also, by the way, Chairman of the World War 
I Commission. He is dual hatted. He is my deputy, but he is 
Chairman of the World War I Commission. But we want to put some 
flesh and blood behind those crosses and those names of the 
missing.
    So that is our earnest effort. And I would like to turn 
over to my colleague here the other part of your question, 
which is the question of extension of Arlington. However, I am 
the Chairman of the Advisory Committee for the Secretary of the 
Army on Arlington National Cemetery, and we have been working 
mightily to expand the Arlington that we know and love here. 
That is an Army cemetery, and whether the Army decides to do 
something else or create an Arlington somewhere else, I do not 
know. But we hope to extend this Arlington beyond 2050.
    Mr. Farr. So the question, what is the Army considering for 
the next step?
    Mr. Hallinan. Congressman Farr, I have two questions, one 
is the Arlington of the West and the other is a question on 
data on geographics, locations of where veterans are coming 
from, the east coast versus west coast.
    To your first question, the Army does not plan on creating 
another Arlington of the West. When Arlington closes to first 
interments in the 2050s, it will assume the role that is very 
similar that ABMC has now. In the American psyche, Arlington is 
a national shrine, it is a special place. The Army is not in 
the cemetery business. That role has been given to the 
Department of Veterans Affairs, the National Cemetery 
Administration, so when we do close for first interments, that 
will be a duty and a responsibility of the Department of 
Veterans Affairs.
    Mr. Farr. But haven't you had an advisory committee looking 
at that? I mean, we talked about that the last couple of years.
    Mr. Cleland. I am the chairman, and we are focused on this 
Arlington. But the question of another Arlington is up to the 
Department of the Army.
    Mr. Hallinan. And to answer your question, Congressman, the 
Army has no plans on designing and building an Arlington of the 
West at this time. We believe that is a role for the Department 
of Veterans Affairs by law. That is their duty and 
responsibility.
    Mr. Farr. Well, this is the first we heard it. I mean, 
essentially after our Arlington, then you stop the 
responsibility. That is it?
    Mr. Hallinan. Well, it is a finite footprint, Congressman, 
and some day it will be filled up, as many of our national 
cemeteries and even our overseas cemeteries are. You have been 
out to Arlington Cemetery, have walked the grounds and have 
seen the footprint, what surrounds the Cemetery. Arlington 
Cemetery is difficult to expand or displace people.
    The Army doesn't consider its role to be opening new 
national cemeteries. That is a role that Congress has given to 
the Department of Veterans Affairs and one they do an excellent 
job with. I have a lot of families and friends that I have 
worked with that are buried and interred at the VA national 
cemeteries, and when my day finally comes, just like in life, I 
will be honored in death to lie next to them in a VA national 
cemetery. They are being honored.
    Mr. Farr. Thank you.
    Mr. Dent. Thank you.
    Let me recognize Ms. Roby at this time.
    Mrs. Roby. Thank you.
    Thank you all for being here today.

                          CASELOAD AND BACKLOG

    Judge, you mentioned in your testimony about the need for 
the funding to remain in place for the ninth judge, and I can 
only assume that that is because of the caseload and the 
continued backlog. And so I thought it might be helpful for you 
to give us an update on your caseload. We know that there have 
been some improvements, but we still have a very long way to 
go. And so I think it would be helpful for us to hear from you 
about that.
    Judge Kasold. Thank you.
    I would first like to say that the caseload that we have is 
directly proportionate to the number of cases that the Board 
decides. You can say it is somewhere around 8 percent. It could 
be 10 percent, it could be 7 percent, but use 8 percent.
    In 2013, the Board decisions dropped in numbers because of 
a reduced staff, et cetera, and we have had a drop in the 
numbers in 2014, and we have no backlog at the court at this 
particular time. But we are looking at numbers that are very, 
very high. The Board predicts they are going to put out 
somewhere around 58,000 decisions this coming year. That is 
going to be close to 5,000 appeals if you just take close to 
the 8 percent rate. Could be a little bit higher.
    That is why I have the funding in here for the ninth judge. 
If we were to stay where we are today, I think that eight 
judges would go ahead and process those cases very--I am not 
going to say rapidly because the appellate process takes time--
but promptly.
    Mrs. Roby. Sure.
    Judge Kasold. First off, you have a record that has to be 
prepared. You have mandatory consultation. You have 60 days for 
an appellate's brief. You have 60 days for a reply brief, 15 
days beyond that, and you are out at 270 days before it can get 
to the judge. And that doesn't count the delays, and there are 
a number of delays requested by each of the parties.
    But cases that get to the judges, if they are a single 
judge, they are being decided within a 90-day period. If it is 
an affirmance, that is the end of the case unless it gets a 
limited appeal up to the Federal Circuit.
    Mrs. Roby. And if you didn't have this additional judge?
    Judge Kasold. Well, we go to eight, so each judge is doing 
about 200 cases. And when you go to eight, you spread the 200 
among the eight judges. Again, right now that takes time to get 
through the process, et cetera.
    Mrs. Roby. Sure.
    Judge Kasold. But if they did not authorize that ninth 
judge, with the increase in appeals that we have already seen 
within the last 6 months that will slow down the time that it 
takes to get a decision out. So that is why we have asked both 
of our authorizing committees and coordinated with your staff 
on the funding for the ninth judge. I think it is very 
important to do that.
    We also have the capability to recall our senior judges. 
When I first became Chief Judge there was a backlog, if you 
will, to use that word, we don't like to use it. But it was 700 
cases sitting in our central legal staff, and many of the 
judges had over 100 cases in their chambers.
    With some reorganizational things that we did, and the help 
of the senior judges, that has all been eliminated. And our 
senior judges can be very helpful. This current year, I have 
not recalled any senior judges, because the nine that we have 
are processing the cases, as I said. Last year we recalled one.
    I anticipate that with the numbers that we are likely to 
have, probably next year, or certainly by the next, when the 
follow-on Chief Judge would be doing the recall, we will start 
to recall the senior judges, particularly if we don't get that 
ninth judge. Even if we do get the ninth judge, within about a 
year we will start to recall the senior judges because of the 
numbers that we are looking at. They really are very high.
    Mrs. Roby. Okay. I appreciate that.
    Sir, I don't want to mispronounce your last name, Mr.----
    Mr. Hallinan. Hallinan.
    Mrs. Roby. Hallinan. Okay. Thanks. You mentioned some of 
the challenges that Arlington is faced with given 
sequestration. I would like for you to provide a little bit 
more detail in light of what is going to happen on October 1, 
fiscal year 2016, should we fail here in Congress to address 
it.

                             SEQUESTRATION

    Mr. Hallinan. Thank you for your question.
    Sequestration will affect Arlington specifically, like many 
other organizations, our ability to carry out the mission. It 
is not an excepted appropriation. If we face sequestration and 
we don't have the funding to cover operations, it will impact 
our funeral services. It will impact daily operations. It may 
result in furloughs of staff. It will have a significant impact 
immediately, and it will impact the entire country, because 
family members come from all around the country, they plan 
months in advance to schedule the funerals, they fly in, they 
have the remains transported here. So that is an immediate 
impact that we will face.
    The other impact is the daily impact on the maintenance 
plans that we have, on the current contracting issues. If we 
can't meet those debts or bills, we don't have the resources, I 
see a serious and immediate impact on the daily operations.
    But as I have testified previously, these expansion 
projects that are underway, the ability for the Army Corps of 
Engineers in Norfolk District that does most of our major 
projects, for them to plan and design and then contract our 
major expansion projects, if the money is not available, if we 
are in sequestration, I could see that impacting those 
projects. So I can see it having an impact even longer term 
than the sequestration.
    Mrs. Roby. Thank you. My time has expired. I yield back.

                          INCREASE IN APPEALS

    Mr. Dent. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Thank you all for being here today.
    Chief Judge Kasold, following up on the distinguished lady 
from Alabama's question, what do you attribute to the overall 
increase in the appeals? Is it the aging veteran population? Is 
it more veterans in the system? Do you have any thoughts about 
why the number of appeals has increased so drastically.
    Judge Kasold. My thoughts are--I don't have the data to 
support this--but I believe there is a better understanding of 
the breadth of benefits that are available to veterans than 
existed years ago. And there may have been some kind of stigma 
associated years ago with some people thinking that it was for 
people who lost limbs, et cetera.
    That is not the case today, as I see it, with all of the 
veterans, not just those who are retiring soon, but also those 
who retired in the past. And you add to that the fact that they 
are getting older and there are other problems that they see, 
and somehow they are trying to relate their condition to 
service.
    Interestingly, we don't see or have not seen very many 
claims from people who have recently served. We are still 
seeing the older veterans coming in on the appeals, trying to 
establish service connection. Even in the liberal system that 
VA has, you still have to have some kind of connection between 
your current disability and service. So those are the cases 
that we are seeing.
    And then the increased rating. Again, it is a very liberal 
system, so if somebody had a 10 percent or a 20 percent rating 
and in their mind it gets a little bit worse over time and the 
Board didn't approve an increased rating--we are seeing the 
appeals on those also.
    I think it is just a better understanding of the breadth of 
VA benefits that are available that is causing this significant 
increase, but VA may have a better handle on that.

               BREADTH OF BENEFITS AVAILABLE TO VETERANS

    Mr. Joyce. And the increase then, you have an aging veteran 
population that is getting better educated to the potential 
benefits, and from part of your answer, people who are serving 
now, could we expect even a larger caseload going forward?
    Judge Kasold. I don't know what the breakdown is in the 
roughly 1-point-4 million claims within VA as far as how many 
veterans are from the recent conflicts and how many are the 
older veterans. I am saying we see the older veterans. 
Remember, of 1.4 million claims, maybe close to 60,000 are 
appealed to the Board. I understand that they have another 
300,000 floating in their whole process of development on the 
appeal. But from those 60,000 decisions, we are seeing 
somewhere around 4,000 to 5,000 decisions. While that is a lot 
for our court, it is small within the big number of decisions 
that are being done.
    We are also seeing, and I think VA is seeing this too--not 
only are the number of veterans filing increasing because they 
know about it, but instead of just seeking benefits for one or 
two disabilities, we are seeing five, six, seven disabilities. 
And so for each of those, even if you get four disabilities 
approved, you still have two left that you might want to appeal 
to the Board or then to the Court.
    So that, again, ties into what I think is a better 
understanding of the breadth of benefits that are available to 
a veteran. And you can file at any time. There is no 
limitation. So those veterans who never filed and are 70, 60, 
whatever age, they can file.
    My advice to veterans, is that when they leave service is 
the best time to file for benefits because your service 
connection is either there or it is not. You can always file 
for increases later on. But the longer you wait, the more you 
are going to find issues there. That is from the appellate view 
looking down.
    Mr. Joyce. Well, it is a good viewpoint to figure out how 
we can lighten your load by potentially doing this earlier on 
in the process. That is a good point.
    Judge Kasold. I think you would lighten the service 
connection load. Again, increased ratings can be filed at any 
time. And if a veteran is not satisfied, they have an absolute 
right to go to the Board, an absolute right to come to our 
Court. On limited issues of law they could go to the Federal 
Circuit. I think 130 of our cases were appealed last year. Most 
of those the Federal Circuit doesn't have jurisdiction over 
because the appellant is really just unhappy with the factual 
determinations, and that is not within the jurisdiction of the 
Federal Circuit. They may only review questions of law.
    Mr. Joyce. Great. Thank you.
    Mr. Chairman, I yield back.
    Mr. Dent. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Mr. Secretary, very nice to see you again.
    And thank you all, gentlemen, for coming today.
    Mr. Cleland. Thank you.
    Mr. Fortenberry. I was reflecting on something. In August 
of 1944 there was a young medical doctor who left his wife and 
two children and initially was assigned to a field hospital in 
the Army in England. And at some point after that he was sent 
into France, and near the town of St. Mere Eglise, between St. 
Mere Eglise and Cherbourg, he was killed by exploding ordnance. 
And he was buried there at the town of St. Mere Eglise, one of 
the key battlefield sites where our paratroopers landed the 
night before into the German column there and fought it out.
    He was later reinterred here at Arlington National Cemetery 
when all of the smaller cemeteries were consolidated and 
families were given a choice whether or not to leave their 
loved ones there at Omaha Beach or to bring them home.
    He was my grandfather. And as I have gotten older it 
becomes apparent to me, and as I am the last remaining male, it 
is necessary for me not only to own the fullness of this story, 
but to pass it on to my children as well. And we have visited 
his grave here, and perhaps at that point they were too little 
to understand, but I wanted to give them some initial exposure 
to this important part of my own family's history, the 
sacrifice that my own family made for the well-being of our 
country. But also to participate in something deeper, the honor 
and commitment of it all, the profound nature when one lays 
down their life for their friends, for their country.
    Mr. Secretary, I think you have the best job in America, to 
be frank with you, because you are not only preserving our 
history and sharing our history, now you want to evolve it into 
fully interpreting that history. Just like you are trying to 
meet, in my own way I am trying to meet that need for my 
family. Your work is assisting me to do that and so many other 
countless Americans.
    So, look, we have the responsibility here to take a hard 
look at your budgets and all that, and that is what of course 
we will do. I think you do beautiful things, though, and I 
wanted to commend you for it.
    Back to the point that Mr. Dalessandro was making, I had a 
recent visit to Normandy, and again the orderly rows of white 
crosses punctuated with an occasional Star of David is just 
such a profound reminder of the sacrifice and is really one of 
the most beautiful places, I think, in the world. And to move 
to the next level, and I was told that of the approximately 
10,000 graves that you have there, you have only got about 
1,000 stories.
    And part of the new evolving mission is to understand each 
one of those names that was there, just like Captain Luther 
Sexton Fortenberry, my grandfather, his own story. The young 
French guide that I had there that your excellent staff set up 
for me was so enthusiastic. He had been on the job maybe 2 
weeks. He was so prepared, a little bit overprepared for a 
Congressman that can't listen to a lot of details. You know how 
that is. But nonetheless, did just a beautiful job of relating 
to us and telling us another story of another soldier who had 
been killed, who had actually gone through the area where my 
grandfather was killed.
    So in regard to this evolving idea of interpretation, I am 
completely with you, I think that is very, very important. I am 
curious, though, as to your comment as to why this has not 
increased visitors yet. Now, you are not in the tourism 
business. I get that. But at the same time I would think that--
let's unpack that a little bit--and I would think that, again, 
our opportunities to enhance this essential part of America's 
experience and pass it on to generations are abundant. Do you 
have any insights?
    And they had talked to me a little bit, frankly, I was 
primed for this, they had talked to me a little bit about it at 
the Omaha Beach Cemetery.
    Now, I have given another speech, and I am almost out of 
time. Sorry, Mr. Chairman.
    But before I am out of time, if you could address that. And 
I do want to add one little note of caution. Be careful about 
the overreliance on technology, because the person-to-person 
story, the ability of your young French national who works for 
us to relay the details of that combat soldier whose story he 
wanted to tell to us was an extraordinary part of the 
experience. And sometimes in our modern age we think we have to 
have the next machine or glitzy thing to do it better. It is 
human-to-human, person-to-person contact that is most 
effective.
    Mr. Cleland. Sir, I would really agree with you. Mr. Bishop 
mentioned Allison, the incredible woman, our interpretive 
guide, our associate at Rhone. When she starts talking about 
her boys, you can't help but have tears well up in your eyes. I 
heard that story in Henri-Chapelle up near the German border in 
Belgium, and she is based in Rhone. And she is on our 
Superintendent Leadership Council. She is awesome. If I could 
just replicate her in every one of our cemeteries, we could 
just all pack up and go home, I mean, because she has got it.
    Now, we do rely to a certain extent, and not as a 
substitute, but we are playing in the field where a lot of 
young people play, which is the Web site with the Twitter and 
the social media and the Facebook and all that kind of stuff, 
and that is increasing. But most of our visitors, believe it or 
not, in these 14 countries are, shall we say, foreign. They are 
not American. So the story is really getting out to the world, 
and we would like to tell the story to more and more Americans.
    Rob, do you have anything to say about that.
    Mr. Dalessandro. I do. And I know we are all over time, but 
I feel like that is such a great question.
    Our biggest challenge is to educate Americans, I feel. It 
is nice when we have 100 percent grave adoption, and we do at 
Margraten and places like that. And I love the dedication of 
going to a place like Saint-Lo and having the mayor drop 
everything he is doing to honor us because American 
paratroopers of today are visiting.
    But we are really working hard to get exactly what you are 
talking about. I feel like every American that goes to Europe 
or goes to the Pacific ought to stop at one of our sites. We 
are working as hard as we can to make that happen, but I will 
be honest with you, I am not sure that we are very good at it.

                         CASELOAD WAITING TIME

    Mr. Dent. Thank you. We are moving to the second round of 
questioning. We are going to start with the ranking member, Mr. 
Bishop.
    Mr. Bishop. Thank you very much.
    Judge Kasold, in terms of your caseload, you said you were 
averaging 343 cases filed a month since fiscal year 2005. What 
is the average wait time between the time a case is filed for 
court and the time it is adjudicated? And over the past 5 
years, has the wait time increased, been stable or gotten 
shorter? And what are you doing to try to deal with an 
increased caseload?
    Judge Kasold. As I stated earlier, we actually are in a 
lull, and the cases are being processed at this time as fast as 
they can be processed. It is an appellate court and there is 
required briefing that goes with that. As I said, single judge 
decisions are decided within a 90-day period, actually a little 
faster than that with the judges today. Panel cases take a 
little bit longer because we usually have an oral argument and 
then three judges get together to come up with a decision.
    The time period is about a year, when you count in all the 
briefing and everything else that takes place with the case. We 
have a very aggressive mediation consultation process. If you 
are represented by an attorney, it goes through that process, 
and there is a 50 percent settlement rate in that process. By 
``settlement,'' I don't mean the case is settled with an award 
of benefits; it is a remand back to the Board. I think you have 
to give credit to VA because their counsel are recognizing some 
of the reasons that a case might get remanded, such as failures 
in the continued duty to assist a veteran, and the requirement 
to render a decision that addresses the issues, in particular 
the favorable material, and explain why that favorable material 
does not support an award.
    So, at this particular time, we are handling the caseload 
as rapidly and professionally and judicially as we can. 
However, the numbers that we are looking at will potentially 
bring us back to what it was when I first became the chief 
judge if we don't get that ninth judge. If the number of appris 
stay at the 5,000 level I think we are going to be fine, but if 
we go into the six, seven, 8,000 case range, we might be back 
looking for additional judges, and we will already have all the 
senior judges recalled.
    Mr. Bishop. Thank you.
    Judge Kasold. But at this time we are doing very well. And, 
again, we thank Congress, because Congress did authorize the 
eighth and ninth judges and has supported us very well. Thank 
you very much.

                               TRUST FUND

    Mr. Bishop. Thank you.
    Mr. McManus, as you know, the deductions from the pay of 
enlisted members, warrant officers and limited duty officers 
are from the trust fund for the Armed Forces Retirement Home. 
What affect will the reductions in the military end strength 
have on the trust fund, and are you prepared to deal with lower 
contributions as a result of the reduction in that end 
strength?
    Mr. McManus. We think one of the significant impacts is the 
fact in our fines and forfeitures, where we are starting to see 
those significant reductions, where in 2009 you had $41 million 
in fines and forfeitures and now with the decrease in fines and 
forfeitures, we are down to $28 million, $13 million loss in a 
year from what the high was in 2009. We are also seeing 
probably about 500,000 a year in end strength, 50 cent dollar 
value, but collectively, it is a significant loss.
    Mr. Bishop. Okay. I will yield back, Mr. Chairman.
    Mr. Dent. Thank you. I just want to follow up, Mr. McManus, 
before we let you go today, and before you have to take care of 
your important business tomorrow, with the prince and the 
duchess, just to follow up on the whole trust fund issue. If 
the fines and forfeitures don't increase, how long before this 
trust fund goes insolvent? Do you know?
    Mr. McManus. Sir, we are on a track right now, if we took 
no action in 2017, we would have issues. If we take the action 
that we proposed in testimony, which is about $8.5 million in 
revenue, we expect that to extend the life of the trust fund, 
but depending on the decrease in fines and forfeitures, we are 
expecting now from a $13 million loss to add another $4 
million. So, you take the collective loss potentially another 6 
years that we would have by--if we increased, at $8.5 million 
annually. But, we do believe if we do something with our master 
plan and we are successful, that we can stabilize the trust 
fund.
    Mr. Dent. How would you bring in that $4 million in revenue 
that you just alluded to a moment ago?
    Mr. McManus. Sir, what I was talking about is the--in the 
fines and forfeitures, based on the tracking that we are seeing 
right now, we are on track to lose another $4 million in 
revenue out of fines and forfeitures. So, instead of finish, as 
we did in 2014 at $28 million, we are on track to finish at $24 
million.

                        REDUCING OPERATING COSTS

    Mr. Dent. Okay.
    Mr. McManus. Significant loss.
    Mr. Dent. Yeah. The other issue I had, too, what have you 
done to reduce your operating costs without sacrificing quality 
of care for your residents? I know one of the key initiatives 
you highlighted, I think, in your testimony is the Independent 
Living Plus pilot program, and how does this improve care and 
contain healthcare costs as well?
    Mr. McManus. That is probably one of our most significant, 
from a resident perspective, trying to keep them independent in 
place. Plus in the past, what we have found by looking at why 
our residents were going into their upper levels of care, 
statistically there were three main factors. The number one 
overriding reason of moving into higher level of care was 
medication. Typically, whether it is for memory, whether it is 
because of shaking, they start to have problems with 
medication. The second reason we always had to move them up was 
for their room, taking care of their room. They just lost the 
ability to keep their room clean and upkeep. And then the third 
reason was just bathing, their normal appearance and helping 
them.
    We felt if we could do those three things, we could keep 
residents inside their room. And that is really what the 
program is focused on, helping them stay in their room. But if 
you keep a resident--by going to them, keeping them from being 
on meds, you avoid the staffing ratios, what we are going to 
from 3.5 to 4.1, by moving them into upper levels of care, 
significant.
    The other things that we really tried to do is to reduce 
our footprint in D.C. 272 acres, golf course. The importance of 
the golf course, of course, is there is a water reservoir under 
it that is extremely important to us, but the--to do something 
else with that property so we don't have the infrastructure 
costs, but we have revenue from it, we feel is a significant 
need to help our trust fund.

             GREATEST CHALLENGES AND THE MILLENIUM PROJECT

    Mr. Dent. Just going back to--shifting back to Mr. 
Hallinan, briefly, Arlington Cemetery has certainly undergone a 
transformation, some pretty difficult times about 5 years ago. 
You are now on the other side of that trial and are setting 
industry standards for best practices, and so two questions. 
You know, one, what do you see as the greatest challenge at 
this point? What are your greatest challenges at this point? 
And the second question deals with the Millenium project. And 
if you would just give us an update on that project and the 
completion date, what the total cost of that project you think, 
you project will be, and how much burial space are we going to 
be getting? And I understand there is a stream and the site is 
fairly hilly, which can rent some challenges. Is this project 
running on time and on budget?
    Mr. Hallinan. Mr. Chairman, excellent questions. I 
appreciate the opportunity to answer your questions.
    As far as the Millenium project, it is on time and it is on 
budget. And I want to give credit to the Army Corps of 
Engineers and Norfolk District. The 27 acres will give us 
approximately 27,282 burial opportunities within those rolling 
hills. They also have done an excellent job of restoring the 
stream, so that will be available for visitors as they walk to 
it. It will add some serenity to that national shrine. 
Completion, we are looking towards August, September, the end 
of fiscal year 2016. I am optimistic, but it is a challenging 
site, but progress has been good. The total cost of that 
project has been $81.8 million.
    Mr. Dent. Thank you.
    At this time I would recognize Mr. Farr for any questions 
that he might have in the second round.
    Mr. Farr. Mr. McManus, a couple of questions. We got into 
the rest home business in, when, 90--about 1991 or 1992?
    Mr. McManus. The homes actually existed prior to that, but 
that is when they merged the two homes with the trust fund.
    Mr. Farr. And so we are only operating those two for the 
whole country?
    Mr. McManus. That is correct, sir.
    Mr. Farr. Wow. Talk about an unmet need. How many States 
have rest homes for veterans?
    Mr. McManus. I don't know. I could come back to you on 
that.
    Mr. Farr. Please do.
    Mr. McManus. There is about 48 states that have--Sir?
    Mr. Farr. We ought to try--please do. I mean, States can 
build veterans cemeteries--if they have the authority and law 
to build veterans homes, we ought to encourage more of that.
    [The information follows:]

    State Veterans Homes are located in all 50 states and Puerto Rico.

                 VSOS OPERATING REST HOMES FOR VETERANS

    Mr. Farr. Are there any VSOs that operate veteran rest 
homes?--Is there anything outside of State and Federal 
Government that operate rest homes for veterans?
    Mr. McManus. Not to my knowledge, sir. I know the VSO is 
actively involved with us and I know they are actively involved 
with the VAO--or VA as well.
    Mr. Farr. I mean, you have property leased here in 
Washington. You had gotten approval back in 2008 and then the 
economy flipped. It is now back on track?
    Mr. McManus. We put together a request for solicitation 
that we hope to release in the next couple of months to the 
public for companies to come in and bid. We had an open house 
basically for companies to come in and we showed them the 
property. And we had 75 companies. We think the competitive 
market in D.C. is good, it is strong. We see that through what 
is going on in D.C. in terms of building, so we believe it is a 
very competitive environment that we could be very successful 
with, to help the trust fund.
    Mr. Farr. So for the States, who picks up the cost of the 
month--for the veteran? Is it a Federal benefit you get? If you 
operate--the ones you own, the rental costs are probably a lot 
lower. You say you are going to increase the fee. How much is 
that increase going to be?
    Mr. McManus. It depends on what ultimately is approved, but 
we feel that it is going to be about $1.4 million in revenue.
    Mr. Farr. Well, what is the veteran going to have to pay?
    Mr. McManus. Each veteran, based on the level of care, if 
they are Independent Living Plus, it is 35 percent of their 
income. So, it would depend on the monthly income of the 
resident to give you an example of what they pay, but the 
average cost for independent living is somewhere between $800 
and $900.
    Mr. Farr. Isn't there a market? I mean, I can just imagine 
thousands of veterans just in my own State who are dying to 
find an affordable rest home.
    Why can't we use the market incentives like we do in the 
RCI projects, residential community initiative for active duty 
military, to have the private sector build these retirement 
communities? Because you can do it on public property, and you 
don't have to buy the real estate, they essentially collect a 
housing allowance. Why not do the same thing for veterans?
    Mr. McManus. You mean privatize the----
    Mr. Farr. Yeah.
    Mr. McManus [continuing]. The development?
    Mr. Farr. Yeah. There is no way in the world you are going 
to be able to meet the demand out there unless we change the 
lay. When Mr. Hobson was chair of this committee, implementing 
this housing for active duty military was essential.
     What was happening was that Congress would approve the 
funding and then we would have the Corps of Engineers design 
the housing, and they would build it on the bases with private 
contractors, and then soldiers and their families didn't want 
to live there. They took their basic housing allowance and 
said, ``We are going to live in town.'' ``These houses don't 
fit our needs.'' And finally we woke up and said, ``well why 
are we doing this in the first place?'' ``Why don't we get the 
private sector to build the housing, and by the way, you are 
going to have to build to local code standards and 
architectural standards which none of the housing before that 
did. I know, because we received a closed base, and no one 
could live in any of those units, because they violated every 
code you could possibly imagine.
    These projects have been really successful. I think for the 
people that built it, they did competitive bidding. So, 
whatever benefits that veterans get that could be applied, plus 
their Medicare or Medicaid for long-term care. We ought to try 
to stimulate this need. Veterans need these homes badly, and 
they are certainly going to be more affordable.
    So, what is the wait list to get into Veterans Home now? 
How long is that?
    Mr. McManus. The----
    Mr. Farr. How big is it?
    Mr. McManus [continuing]. Wait list is about 2 years to 
get----
    Mr. Farr. How many?
    Mr. McManus. Sir?
    Mr. Farr. How many on the wait list?
    Mr. McManus. There is--I want to say it is, like, 250 on 
the Gulfport list. It is about a 2-year wait list. In D.C. 
there is not a wait list.
    Mr. Farr. In D.C., but they are veterans from anywhere in 
the United States could----
    Mr. McManus. Yes, sir.
    Mr. Farr. But most people don't want to move at that age 
and retire someplace so far away from their family and homes.
    Wait. Let's take it back and figure out. If we have got so 
many States participating, why can't we increase that ante, and 
what incentives can we use to get the private sector involved? 
If we use publicly-owned real estate, we could lease it to them 
for a dollar a year and then they collect. It is certainly 
below market.
    Mr. McManus. I think, sir, one of the--one of the benefits 
of the home, it is subsidized, when you really look at the 
program and where the fundings come from. If you take a private 
developer and privatization programs, they are basically being 
funded through, whether it is the bachelor housing allowance or 
some other type of funding that is part of that privatization 
that offsets their costs to do it.
    Mr. Farr. Well, veterans have won these appeals, they have 
these claims, they have for-life income. That is subsidization. 
I mean, what they don't have is a place to live.
    Mr. McManus. No, I am not arguing that at all, sir. I am 
just saying that I think one of the benefits of the home is the 
fact that the cost for the home is being offset by--
    Mr. Farr. I understand that. And you can offset those costs 
by not having to sell the real estate to the developer. I mean, 
building costs are the same. The biggest variation in building 
today is real estate costs.
    Mr. McManus. That is true, sir.
    Mr. Farr. Well----
    Mr. McManus. And that is--that is why we are trying to do 
the initiative that we have for our southeast part of 
Washington, D.C., to generate that revenue to put back into the 
home for the veterans.
    Mr. Farr. Well, time is up, but you are the specialist on 
veterans homes. There is nobody else in the Federal family that 
knows more about it than you. I am suggesting, think outside 
the box and think about how we can have a veterans home in 
every State, and as many as possible, because the demand is out 
there.
    My wife does end-of-life planning, and I will tell you it 
is just terrible when people realize that they can't afford to 
die. They cannot afford to get old. They can't stay in their 
homes. It is too expensive. They can't even afford to go 
anywhere, and there is nothing picking that up. So, we have an 
opportunity here.
    Anyway, thank you, Mr. Chairman.
    Mr. Dent. Thank you. Thank you, Mr. Farr.
    Before we conclude, Mr. Hallinan, did you want to make an 
additional comment?
    Mr. Hallinan. Mr. Chairman, I didn't answer your second 
question about the two biggest challenges that I think 
Arlington faces in the future. The biggest challenge we face 
is, number one, infrastructure repair, which we made great 
progress on but we haven't finished yet. We identified about 
$75 million back in 2010, 2011, deferred maintenance, and I am 
being kind when I use the term ``deferred maintenance.'' We 
have made great progress, with over $60 million which has been 
applied.
    We must shift toward sustain and maintain so we don't come 
in front of Congress again 19 years from now and the bill is 
much higher. Once we have gotten the investments and the 
appropriations from Congress, we are doing a great job, but how 
do you sustain and maintain that? I see that as the big 
challenge going forward.
    Mr. Dent. Thank you.
    And this pretty much concludes our hearing. I want to thank 
Chief Judge Kasold in particular. This is your last appearance 
before our subcommittee. We will miss you, but thank you.
    And also I just wanted to mention that tonight I believe 
Secretary Cleland has a little program going on. There is going 
to be a panel discussion and a screening of ``Debt of Honor'', 
and Tammy Duckworth, I believe, our colleague is going to be 
joining you, as well as a few others. And I think that event 
tonight is from 6:00 to 8:30 in the Capitol Visitor Center. So 
please show up. Even if you didn't RSVP, go ahead, show up.
    Judge Kasold. Thank you, Mr. Chairman.
    Mr. Dent. So, I just wanted to mention that. And, again, 
thank you all for joining us.
    Members are advised that our next hearing is tomorrow, 
tomorrow morning March 19 at 9:30 a.m. in room 309 in the 
Capitol in the Subcommittee on Commerce, Justice, Science, in 
their hearing room. The Inspector General of the Department of 
Veterans Affairs will be there.
    So, again, thank you all for being here today, and this 
meeting is adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







</pre></body></html>
